<html>
<title> - NORTH KOREA'S DIPLOMATIC GAMBIT: WILL HISTORY REPEAT ITSELF?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                   NORTH KOREA'S DIPLOMATIC GAMBIT: 
                      WILL HISTORY REPEAT ITSELF?

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2018

                               __________

                           Serial No. 115-146

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                      or http://www.gpo.gov/fdsys/
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
29-691 PDF                WASHINGTON : 2018                 

























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Sung-Yoon Lee, Ph.D., Kim Koo-Korea Foundation Professor in 
  Korean studies and assistant professor, The Fletcher School of 
  Law and Diplomacy, Tufts University............................     9
Victor Cha, Ph.D., senior adviser and Korea chair, Center for 
  Strategic and International Studies............................    21
The Honorable Christopher R. Hill (former Assistant Secretary for 
  East Asian and Pacific Affairs, U.S. Department of State; 
  Former U.S. Ambassador to South Korea).........................    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     3
Sung-Yoon Lee, Ph.D.: Prepared statement.........................    12
Victor Cha, Ph.D.: Prepared statement............................    23
The Honorable Christopher R. Hill: Prepared statement............    33

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    52
The Honorable Ann Wagner, a Representative in Congress from the 
  State of Missouri: Questions submitted for the record..........    54
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California: Questions submitted for the record........    56

 
                   NORTH KOREA'S DIPLOMATIC GAMBIT: 
                      WILL HISTORY REPEAT ITSELF?

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. The hearing will come to order. Good afternoon 
and thank you for being here today and taking your time.
    In a speech on New Year's Day, North Korea's dynastic, 
totalitarian dictator, Kim Jong-un, laid the groundwork for a 
charm offensive at the Winter Olympics which has led to 
proposed summits with President Moon Jae-in and President 
Trump. In March, Kim also undertook a surprise visit to 
Beijing, underscoring China's continued influence over the Kim 
regime.
    Earlier this week, the press reported that the North Korean 
officials confirmed to U.S. diplomats that denuclearization 
would be on the table for the upcoming summit between President 
Trump and Kim Jong-un. Previously, the U.S. public only had 
this information secondhand from South Korean and Chinese 
interactions with the North.
    Just yesterday, Kim Jong-un acknowledged for the first time 
that he is willing to sit across from President Trump and 
discuss his nuclear program. The confirmation puts to rest a 
small part of the uncertainties surrounding these talks, but 
more significant risks and uncertainties remain. At this stage, 
all we know is that these talks will be an inflection point. 
History will decide whether they are best seen as an 
opportunity or a trap. The talks could very well lead to an 
improvement of the security situation on the Korean Peninsula, 
but they also could be the catalyst for a violent eruption of 
the security crisis that has been building for decades, either 
because the talks devolve or even if the talks succeed, but the 
free world buckles and empowers Kim by giving up too much.
    We still don't know Kim's true motivations. It may well be 
that his entire charm offensive is simply a daring gambit to 
ease the pain of the unprecedented pressure campaign. Even if 
Kim approaches negotiations in good faith and not just carrying 
out a cynical ploy, there is still risk. Like any negotiator, 
Kim intends to walk away with everything he wants while giving 
away as little as possible as we have seen in the past.
    The likeliest scenario is that Kim wants concessions that 
the United States will find completely unacceptable. Kim wants 
the United States to lift sanctions to empower his regime 
further and desert our South Korean allies by withdrawing U.S. 
forces and our nuclear umbrella.
    It is worth noting that North Koreans have only said they 
are willing to discuss the denuclearization of the Korean 
Peninsula, not the denuclearization of North Korea 
specifically. As Dr. Lee and Dr. Cha point out in their 
commentary and testimonies, this distinction does not get the 
attention it deserves given the unique implication of both, and 
that is why it is so important that you are here today to put a 
highlight on that.
    Other creative negotiating outcomes might involve 
transferring goods or currency which has been done before with 
disastrous results. North Korea has time and again failed to 
show the world that it is willing to negotiate in good faith. 
On the other hand, we have many examples of North Korea using 
diplomatic gambits to get paid, dodge sanctions, and advance 
its nuclear weapons program.
    American resolve is the key to mitigating many of these 
risks. Easing the maximum pressure campaign prematurely would 
give Kim the easy victory he desires. It would also weaken the 
multilateral coalition that follows our lead which the 
administration has painstakingly built over the last year. 
Kim's promises are worth nothing and nothing is what we should 
trade for empty words.
    It is said that the definition of insanity is doing the 
same thing over and over again and expecting a different 
result. With such high stakes we can't afford to repeat 
ourselves and the United States must do things differently than 
we have before. We must learn how and why previous rounds of 
dialogue broke down and apply those lessons going forward to 
best empower our negotiators. Fortunately, our panel today 
includes three of the people who are best qualified to make 
recommendations on how to accomplish this.
    And with that, members present will be permitted to submit 
written statements to be included in the official hearing 
record and, without objection, the hearing record will remain 
open for 5 calendar days to allow statements, questions, and 
extraneous material for the record subject to length limitation 
in the rules and the witnesses' written statements will be 
entered into the hearing record.
    I thank the witnesses for being here today and turn to the 
ranking member for any remarks.
    And, Mr. Bera, do you want to take that mantle right now?
    [The prepared statement of Mr. Yoho follows:]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Bera. And the ranking member is walking in right now, 
so I will relinquish----
    Mr. Yoho. There he is right there. But I think--well, we 
will just wait a minute here. I think it is important as you 
guys realize that, that you are here today to talk about what 
is going on in North Korea and how we can do recommendations to 
the administration to the State Department on how we move 
forward and we want to hear your testimonies on what 
denuclearization means to us and what it means to the Kim 
regime.
    And if the ranking member is ready for opening remarks, I 
am going to turn to you, sir, thank you.
    Mr. Sherman. I thank you for being here. We have had a long 
history and we look forward to learning from that history. I 
think the success we will have in negotiations will be 
dependent upon us having a reasonable bargaining position. I 
remember when the North Koreans were seeking a nonaggression 
pact and the position chiefly of then Vice President Cheney was 
we can't do that, we want to invade.
    But another part of our success will depend upon how tough 
we are with sanctions. We have U.N. sanctions that are 
considerably better than anything we have had in the past. We 
need, however, to cut off North Korea from the banking system, 
and this may not be achievable just by sanctioning those 
Chinese banks that do business with North Korea because there 
will always be a few small banks in China willing to do 
business with North Korea. It may be necessary to have 
sanctions on the entire Chinese banking systems until the 
Government of China turns off the financial flow to North 
Korea.
    I would also point out that the U.N. resolution allows a 2-
year period for these<greek-l>, quote, deg. ``guest workers'' 
that are one of North Korea's major exports to continue to 
operate and to remit money to the North Korean regime. It is 
more than a little vexing that Poland and other countries who 
depend on the United States for their defense have chosen to 
make use of this 2-year grace period. It is vexing that they 
have North Korean workers there to begin with and I think the 
United States has to be more forceful in getting certainly our 
allies to do more than minimal adherence to the U.N. 
resolution.
    In the 115th Congress I have joined with colleagues in 
introducing five bills that condemn and sanction North Korea. 
We need to strengthen, to redouble of course our alliance with 
South Korea. In the agreement to have talks with Kim Jong-un, 
we have made substantial concessions that I don't think are 
highlighted. We have, in effect, conveyed the opportunity to 
meet face-to-face with a President of the United States, a 
dream of this regime. But second, it puts us in a position 
where we can't ratchet up the sanctions on the eve of the 
talks.
    So North Korea buys itself some time when we are not 
ratcheting up the sanctions and in return they have not stopped 
creating fissile material, engineering nuclear weapons, or 
doing the engineering on their intercontinental ballistic 
missiles. They just pause in testing which may be fully 
consistent with an all-out effort to develop the program, since 
you go through an engineering phase, a prototype building phase 
and then a testing phase and they had just completed many of 
their tests.
    So, finally, we have to discuss the risk that North Korea 
will sell its nuclear weapons. This has already occurred to one 
degree. In 2007, Israel destroyed in Syria a nuclear weapons 
plant in creation. What was underpublicized at the time is that 
all the technology--the kits, the equipment--came from North 
Korea. So North Korea has already sold a kit to make nuclear 
weapons at a time when it, itself, did not have more fissile 
material than it thought it needed for its own defense.
    I think, perhaps the number one goal of our negotiations 
has got to be the kind of monitoring that would assure us that 
North Korea is not selling fissile material or completed 
nuclear weapons, because as dangerous as North Korea is those 
who would want to buy nuclear weapons from North Korea may be 
more dangerous. With that I yield back.
    Mr. Yoho. The chair will now recognize Mr. Chabot of Ohio.
    Mr. Chabot. Thank you very much, Mr. Chairman, and I want 
to thank you for holding this very important hearing.
    The global community has watched carefully as the President 
has dramatically changed our engagement strategy with North 
Korea and after recent sanctions Kim Jong-un now wants come to 
the negotiating table. And I would say President Trump to his 
credit along with this Congress, both Republicans and 
Democrats, have been ratcheting up sanctions on North Korea for 
the better part of a year now and North Korea is starting to 
feel the pain.
    Unfortunately, 90 percent of the North Korean people live a 
horrific life under any circumstances and are on the verge of 
starving with or without sanctions. But the sanctions are 
apparently making it tougher for Kim to figure out how he is 
going to continue to pay his bloated military forces and the 
regime flunkies who keep him in power.
    So it is we have almost an historic occurrence that will be 
coming up soon with this meeting. Whether it is the sanctions 
or whether it is the President's threats to Kim Jong-un, 
whatever the motivation, it is my view that a face-to-face is 
far preferable to war. And it seemed that military action was 
the direction we were headed without some intervening event and 
this could very well be that intervening event.
    My advice to the President would be the following, and that 
is to take Ronald Reagan, who my colleague to my left, your 
right, worked for those years as a speechwriter of his, I would 
take his attitude when he was dealing with the Russians and 
maybe take it a step further. Reagan said trust, but verify. I 
would advise distrust and verify.
    This is not the North Koreans' first rodeo. They have 
negotiated previous deals with previous American 
administrations accompanied by our allies and the Russians and 
Chinese and then broken those deals time and time again. The 
deals have typically been along the lines of we give them food 
and oil in return for a promise and their nuclear program and 
they take our offerings and then cheat and continue their rogue 
program in secret and eventually out in public when they think 
it is to their advantage to use that to threaten us.
    So, President Trump, I would also advise him to review with 
specificity the history of previous negotiations with the North 
Koreans and learn from those encounters. True, Kim's father was 
in charge in those days, but this rotten apple didn't fall far 
from that rotten apple tree or from the rotten grandfather's 
for that matter. So these are important times and I look 
forward, I think we all do, to working with the administration 
to make sure that it goes in a direction that benefits us, our 
allies, and world peace. So thank you very much, Mr. Chairman.
    Mr. Yoho. Thank you for your comments.
    Next, we will go to Dr. Ami Bera from California.
    Mr. Bera. Thank you Mr. Chairman and to the ranking member.
    I think the issue of stability on the Korean Peninsula and 
certainly how we approach North Korea has been a pretty 
bipartisan issue in this committee and certainly in Congress 
and our strategy of isolation of North Korea, maximum pressure, 
and certainly the U.N. Security Council has been helpful, 
secondary sanctions to look at the Chinese banks and Chinese 
commerce to try to put pressure on his currency reserves, et 
cetera, all with the goal of opening the door of diplomacy and 
opening dialogue certainly has been the right strategy, 
separate the errant tweet occasionally that, you know, we 
prefer not necessarily happen.
    I look forward to hearing from the experts on this panel on 
a couple things. One, with that desire to create some 
insecurity with the North Korean ruling elite, to create some 
insecurity with his military particularly with his generals, 
the assessment of what life in North Korea is like and have we 
had any impact, with the underlying broader question of what is 
different this time in how we approach these negotiations or 
how our allies in the Republic of Korea as they engage in 
initial conversations. You know, as President Moon has said, 
they will go in with eyes wide open as should we in engaging in 
this with eyes wide open.
    So it is a distinguished panel. I look forward to what the 
panel has to say, and again obviously a very timely hearing. So 
I will yield back.
    Mr. Yoho. Thank you for your comments.
    I will next go to Mr. Dana Rohrabacher from California.
    Mr. Rohrabacher. Yes, and look forward to hearing the 
witnesses today. I was here 25 years ago when we made a deal 
under President Clinton that provided millions and millions of 
dollars' worth of oil that we just gave to the North Korean 
Government in exchange for not having a nuclear program. All 
those, I think it was $150 million, I believe, I am not sure of 
the exact number. You folks probably know what that number was. 
But my my, how about that, we gave them $150 million and they 
went ahead and built a nuclear weapon anyway.
    Sometimes we are such fools and it is distressing to think 
that American leaders at that level were that stupid to be 
dealing, to be giving money to that ilk. What we had at that 
time was a regime that was dedicated to Marxist-Leninist 
dictatorship. They were fanatic Marxists and Communists and you 
cannot buy a way, that type of commitment. You just can't do 
that. They don't appreciate that. That is not what they, how 
you can make a deal with that kind of person.
    Today it is different, isn't it? Today, Kim Jong-un is not 
his father and I think that is the most important thing that we 
have to understand. This is not like it was 25 years ago and we 
do not have someone who was raised among Marxist-Leninist 
dogma. We have instead a young man leading that country who was 
raised at an elitist school in Switzerland, totally aware of 
what is going on in the Western world, thus he has a different 
perspective than the Marxist-Leninists, his father and his 
father's father. So perhaps that means we have an opportunity 
now to do something that we didn't have before and we should be 
very careful about that.
    Now I saw Ronald Reagan in a very similar spot. I worked 
with Reagan for 7, 7\1/2\ years. When he became President you 
had some very hardcore Communists. Andropov ended up being one 
of the leaders there of Russia, but then Gorbachev came to 
power and he realized that Gorbachev was not someone dedicated 
to Marxism-Leninism, he was a man who wanted to make Russia, do 
something good about Russia.
    Reagan handled it superbly and when they had their first 
meeting and Reagan made an offer and Gorbachev wouldn't go 
along with what one of the bottom lines was he walked away from 
it. But then he with one hand he was like this, we were helping 
the mujahideen fight against Soviet troops in Afghanistan, but 
the other hand Ronald Reagan held out like this, let's make a 
deal.
    Well, we now have a President who now also knows how to 
make a deal and we will be dealing with someone who is not a 
hardcore Marxist-Leninist but maybe just maybe wants to do 
something for his people. So I see what is going on in Korea as 
today there is a great opportunity for a President like 
President Trump who just takes great pride that he knows how to 
make a deal that will work for both parties.
    So with that Mr. Chairman I am very anxious to hear from 
our witnesses on what they think that deal could be.
    Mr. Yoho. Thank you.
    Next, we will go to Ms. Ann Wagner from Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman. I have just a brief 
few words for organizing this very timely hearing. I had the 
opportunity to visit the DMZ last August and I saw firsthand 
the palpable tension in the region. Japan and South Korea, some 
of our strongest allies, are finding themselves in the 
crosshairs of North Korea's dangerous game of nuclear 
brinkmanship. The Kim regime's reckless belligerence and 
inclination to escalate crises pose an immediate threat to 
global stability. Although I worry full denuclearization is not 
possible under the Kim regime, I applaud the administration and 
our President for seizing an opportunity to pursue a more 
permanent, peaceful solution.
    With that Mr. Chairman I yield back and I look forward to 
our line of questioning.
    Mr. Yoho. And I thank you for your comments.
    And what I want to turn our attention now to is our 
witnesses, but before we go there we know what didn't work in 
the past. You know, we have seen 25 years of failed policies 
that were stop and go and in that interim we saw North Korea 
get stronger and stronger in their technology. And if we look 
at, and I don't want to take your thunder away, Dr. Cha, but in 
1994 to 2008, between those years North Korea conducted 17 
missile tests and one nuclear test; from January 2009 through 
the end of the two terms of the Obama administration this 
number increased to 65 missile tests and four nuclear tests; 
and during the first year of this President, President Trump, 
we have seen 20 missile tests and one hydrogen test.
    And so we know the narrative is they are going to continue 
to grow and I want to know what has changed as you talk. And I 
read your testimonies and what I would like for you to do is go 
beyond that in recommendations of policies. I can tell you this 
administration does listen. We have sent stuff to them before. 
They have taken it in, some of it they have used. And so this 
is a chance that we can direct those negotiations. I know the 
administration is probably listening, but I also know North 
Korea is probably listening and so let this be a prelude of 
what is to come.
    And let me get my notes here. We are thankful to be joined 
today by Dr. Sung-Yoon Lee, the Kim Koo-Korea Foundation 
Professor in Korean Studies and assistant professor at the 
Fletcher School of Law and Diplomacy at Tufts University. Thank 
you for being here.
    Next is Dr. Victor Cha, senior adviser and Korea chair at 
the Center for Strategic and International Studies and the 
Honorable Christopher R. Hill, former Assistant Secretary for 
East Asian and Pacific Affairs at the U.S. State Department and 
former U.S. Ambassador to South Korea. We thank you for being 
here. We thank you for your time and look forward to your 
testimony.
    And Dr. Lee, I think you all know how it works. You have to 
hit the speaker button in front of you. You have 5 minutes and 
then we will go into questions when you all get done. Thank 
you.
    Dr. Lee?

  STATEMENT OF SUNG-YOON LEE, PH.D., KIM KOO-KOREA FOUNDATION 
   PROFESSOR IN KOREAN STUDIES AND ASSISTANT PROFESSOR, THE 
     FLETCHER SCHOOL OF LAW AND DIPLOMACY, TUFTS UNIVERSITY

    Mr. Lee. Thank you, Chairman Yoho and distinguished members 
of the subcommittee, for this rare opportunity. Allow me, 
please, to make five brief points. First, address the basic 
internal dynamics in the Korean Peninsula in order to 
underscore the fact that North Korea will probably never give 
up its nukes and ICBMs unless presented with the specter of 
regime collapse. Second, argue that North Korean behavior both 
in its calculated provocations and post provocation, fake peace 
ploys as we are witnessing today, these actions are 
approximately predictable. There are patterns to these 
behaviors.
    Third, argue that history already is repeating itself. Kim 
Jong-un is taking a page or two or three from his daddy's year 
2000 playbook and his playbook from the early 2000s, able to 
line up the leaders of the biggest powers in the world, get 
them eager to meet with Kim Jong-un thereby legitimate him and 
come across, Kim coming across as a reasonable person with whom 
the outside world can do business. Fourth, try to assess Kim's 
intentions. And, finally, fifth, make some recommendations on 
how best to address this latest post provocation, fake peace 
ploy.
    In the Korean Peninsula, as we know, we have a two-state 
formulation, South Korea vs. North Korea. Both states are 
engaged in a life and death existential contest for pan-Korean 
legitimacy. When you consider the conventional indices of 
measuring state power, political attractiveness, soft power, 
economic power, size of your territory, population, and 
military power, except for military power we know North Korea 
lags far behind the richer, the freer, far more legitimate 
South.
    So for the North Korean regime contending with and catching 
up with and perhaps one day prevailing over the South Korean 
state is a nonnegotiable proposition to assume, to presume that 
we can, through artful diplomacy and for the right price, get 
North Korea to give it up, give up its nukes, is a bit 
misplaced, in my view. No person, I would think, would 
entertain that presumption with respect to the eight other 
nuclear states that we can get them through conventional 
diplomacy to give it up.
    But we have entertained that hope because North Korea is so 
backward and so dependent on outside aid. For the very same 
reasons, precisely the very same reasons because North Korea 
has nothing else, I think one has to admit that North Korea is 
most unlikely to give it up. And President Trump during his 
address to the ROK National Assembly on November 7th last year 
laid out the basic internal dynamic very aptly when he 
said,<greek-l> quote, deg. ``The very existence of the thriving 
South Korean Republic threatens the very survival of the North 
Korean dictatorship.''
    When pundits opine that North Korea is unpredictable, I 
think what they really mean is it is unconventional. Just by 
looking at the calendar we can sort of approximately predict 
when the next big weapons test is coming. They like to do these 
things on a major holiday, both theirs as well as American, and 
occasionally Chinese. Likewise, their post provocation peace 
ploys are also predictable, I would say.
    In 2000, after having established his credibility, Kim 
Jong-il, for example, firing a missile over Japan for the first 
time on Sunday, August 31st, 1998, and the next year 
instigating a naval skirmish vis-a-vis South Korea, softened up 
the South with a course for the first ever summit meeting. And 
2 weeks before his meeting with the South Korean leader, Kim 
Jong-il made his very first visit to China in late May and met 
with the Chinese leader and then he pocketed $500 million from 
the South and then turned his gaze on the U.S. for the first 
time, sent a special envoy to President Bill Clinton and 
invited President Clinton to come to Pyongyang. Next year he 
met with Putin in August 2001, the following year Japan got 
nervous and Prime Minister Koizumi paid Kim Jong-il a visit in 
Pyongyang in September 2002, and made a repeat visit 2 years 
later.
    So we can see his pattern play out. Kim Jong-un made his 
very first visit to China after assuming power 6 years ago, 
just as his own father did in 2000, 6 years after assuming 
power. What are Kim's intentions? Well, to draw out open-ended, 
never-ending negotiation process on the denuclearization of the 
Korean Peninsula. We don't say North Korea for some strange 
reason, Korean Peninsula. And that means in North Korean 
parlance dislodging the United States extending nuclear 
deterrents from the region.
    I would advise the Trump administration to think hard on 
the basic logic, the following question. At which point between 
February 9th when Vice President Pence attending the opening 
ceremony of the Pyeongchang games called North Korea's outreach 
to the South a charade and Kim Jong-un's invitation for a 
summit meeting conveyed by the South Korean's envoys a month 
later on March 8th, at what point did Kim's intentions turn 
from fake to not fake?
    They have been planning for this for years now and there 
are many, many traps strewn on the path to Pyongyang. So I 
would advise President Trump basically to call for some action. 
Release foreign detainees, unlawfully detained Canadian, 
American, South Korean; allow separated families across the DMZ 
and across the Pacific, American families, the basic freedom of 
communication, exchange of letters, making telephone calls 
before and after regulated, routinized family meetings; make 
sure not to prematurely relax sanctions of the terms for 
gradual suspension and ultimate termination of sanctions are 
codified into law, Sections 401 and 402 of the 2016 sanctions 
law; and lastly, don't be mesmerized by Kim Jong-un.
    Outsiders, intellectuals, statesmen, and journalists have 
variously been stunned when meeting with one of the Kims in the 
first, second, third and they come across as worldly, 
knowledgeable, have a sense of humor even, and they say 
strangely pleasing things like, we understand that the U.S. 
troops in the South play a stabilizing role so we are not eager 
for their immediate withdrawal. They come across as reasonable 
and the outsider comes away thinking through by virtue of his 
own charisma, intelligence, and empathy that he has gained some 
deep understanding of North Korea. No, don't underestimate 
North Korea. They are very crafty at this game of using both 
the carrot and stick.
    I have gone beyond my time. Forgive me.
    [The prepared statement of Mr. Lee follows:]
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                              ----------                              

    Mr. Yoho. Dr. Lee, thank you.
    Dr. Cha?

STATEMENT OF VICTOR CHA, PH.D., SENIOR ADVISER AND KOREA CHAIR, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Cha. Thank you, Chairman Yoho and Ranking Member 
Sherman and subcommittee members.
    So I guess the first question is whether this summit is a 
good or a bad thing and I think generally summits are good 
things. They allow us to use an action-forcing event to bring 
to conclusion months long or years long of negotiations. But 
what you generally want is a careful and deliberate negotiation 
process with the promise of a summit at the end. What we have 
today is the promise of a summit within weeks without enough 
time for substantive negotiation. That leaves two possible 
outcomes.
    The first is failure. Lack of preparation and pre-
negotiations could lead to a failure, and the danger of a 
failed summit is that it could actually take us a step closer 
to armed conflict because there is no diplomacy left after a 
summit. Or we could have limited success where the two leaders 
might agree to some broad principles about denuclearization, 
about peace, about normalization, and then leave it to a team 
of negotiators to work out the details over the course of 
months or years. The point is that a summit without adequate 
preparation has a greater chance of failing and without such 
preparation delaying it might be a good thing.
    Second, a summit is not a strategy and a summit without a 
strategy can be dangerous. There must be a strategy for 
diplomacy that would be relevant whether the summit succeeds or 
fails and I think there are four elements of such a strategy. 
The first is compellence. The United States must continue the 
application of sanctions or maximum pressure as a way to compel 
the North Korean regime to realize that its nuclear path does 
more harm than good to the regime. This must include sanction 
of Chinese entities and individuals which the administration 
has already started, who do not comply with U.N. sanctions.
    The second element is counter-proliferation. North Korea 
presents a serious horizontal proliferation threat as the 
chairman noted. This is unacceptable to U.S. security. A 
comprehensive strategy to stop this must start with our allies 
but expand to U.N. member states to stop any transfer of WMD 
from North Korea.
    The third element relates to deterrence. The United States 
must meet the threat from North Korea by substantially 
upgrading our alliance capabilities and countering North 
Korea's strategy to decouple alliance commitments to defend 
South Korea. Up-gunning our alliances includes military 
exercising, information sharing, ASW, missile defense, and 
counterstrike. This will not only deal with North Korea, it 
will also make our alliances and the U.S. position in Asia 
stronger for the next generation.
    The fourth element relates to diplomacy. I do not know 
whether the current path will be meaningful, but I think we all 
want it to succeed for the sake of peace. But let me offer a 
couple of observations about the path forward.
    First, a useful metric of North Korea's intentions on 
denuclearization would be to seek reaffirmation of a 
formulation that they agreed to in writing in 2005 when they 
said that they would<greek-l>, quote, deg. ``abandon all 
nuclear weapons and existing nuclear programs.'' I believe 
there would be no disagreement from China, Russia, Japan, or 
South Korea to having North Korea reaffirm this more specific 
commitment.
    Second, what may make the diplomatic round different from 
the past is North Korea's long-range ballistic missiles may be 
an area focus in addition to the nuclear weapons. This is the 
case because of the rapid development of these weapons and 
because President Trump has said himself it is never going to 
happen in terms of North Korea having these capabilities. This 
raises an important principle of any negotiation. We must 
protect alliance equities in any negotiation with North Korea. 
Our North Korea policy should start with our allies and should 
not be at the expense of our allies.
    Third, the summit offers a unique opportunity for the 
leaders to discuss a comprehensive settlement. For the United 
States this must include human rights abuses in North Korea. 
The addressing of these human rights abuses would be an 
important metric of North Korea's true intention to reform and 
join the community of nations.
    Finally, a number of core questions need to be answered in 
advance of negotiations. For example, what is the price we are 
willing to pay for denuclearization? What would warrant the 
lifting of sanctions? What is the risk we are willing to accept 
if we can succeed in negotiations and what is the cost we will 
accept of a military solution?
    Let me close with a few words about military force. I 
believe the United States should always be prepared to use 
force to defend against a North Korean attack, to retaliate 
against North Korean proliferation, and to preempt an imminent 
attack by North Korea. The prospect of a preventive unilateral 
attack by the United States on North Korea is more difficult 
and controversial for reasons outlined in my written testimony. 
Such an action would have to take sober account of a threat to 
350,000 Americans who live in Japan and South Korea and that 
decision would have to be made by this body in conjunction with 
the executive branch. Thank you.
    [The prepared statement of Mr. Cha follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thank you for your statement.
    And Ambassador Hill, and thank you for your service in your 
long service to our country.

    STATEMENT OF THE HONORABLE CHRISTOPHER R. HILL (FORMER 
 ASSISTANT SECRETARY FOR EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
  DEPARTMENT OF STATE; FORMER U.S. AMBASSADOR TO SOUTH KOREA)

    Ambassador Hill. Thank you very much Chairman Yoho, Ranking 
Member Sherman and members of the subcommittee. Thank you very 
much for the opportunity to appear before you today and discuss 
the situation in North Korea and the prospects going forward. I 
think there is no question a growing North Korean threat and I 
think that on that basis this is a very timely hearing.
    The threat posed by ballistic missiles and nuclear weapons 
has been with us for many decades, but at no time has it 
required more urgent attention than today. And in this regard, 
I believe President Trump's decision to meet with the North 
Korean leader is in my judgment correct, but nonetheless 
fraught with considerable uncertainty and risk. A meeting with 
the leader of North Korea needs to be meticulously planned and 
frankly the outcome of the meeting should be understood at its 
outset.
    This is not a meeting where you go in with no idea of how 
you go out. It needs to be understood at the outset. The 
willingness to meet, I think, is a courageous gesture by 
President Trump, but it is going to be up to his staff to make 
it a success for him, for our country, and for partners and 
allies. There is no question past negotiations with the North 
Koreans have not been successful, but I think there is much we 
can learn from some of those efforts.
    It has often been suggested that the North Koreans have 
used past negotiations to advance their weapons programs, but 
in fact North Korea has used the time in between negotiations 
to even better effect. This was the case when I took over as 
the U.S. Representative to the Six-Party Talks process that got 
underway in earnest in 2005. Frankly, when we looked at the 
amount of plutonium produced by the Yongbyon reactor during the 
time that there was no agreement on the shutdown of that 
reactor, that is, between December 2002 and July 2007, that 
reactor produced some 40 kilograms of plutonium, which 
depending on their bomb design could be enough for five to ten 
weapons.
    It is believed that most of this fissile material that they 
have today was produced when they did not have a negotiating 
process and I think we need to keep in mind the fact that when 
you don't negotiate there are consequences to that as well. 
This of course does not suggest that if we only kept talking to 
them things would go well. It is often stated that North 
Korea's interest in nuclear weapons has to do with their 
survival as a regime. And in fact to test this proposition, the 
2005 Joint Statement included from the U.S. side security 
guarantees not to attack North Korea, our preparedness to have 
cross-recognition of states in the region, as well as our 
willingness to conclude a peace agreement to provide for a more 
durable instrument to replace the armistice that ended the 
Korean War.
    North Korea ultimately chose to walk away from this package 
of security provisions, all provisions that they said they 
required. They also walked away from energy and economic 
assistance and claiming that they simply could not accept what 
was, from our vantage point and the vantage point of South 
Korea, China, Japan, and Russia, minimally credible 
verification protocols.
    I think it is important to understand that North Korean 
behavior since then and throughout has led me to the conclusion 
that they may claim that the purpose of their nuclear programs 
is to defend against security threats posed by the U.S., the 
real purpose of their arsenal is to cause the U.S. to decouple 
its security relationship from South Korea. It aims to oppose a 
new calculus for a U.S. President whether this President or a 
future President.
    Does the U.S. treaty obligation to help defend South Korea 
expose the U.S. to the threat of nuclear attack? Each nuclear 
test, each missile test, every demonstration of its ability to 
hit the U.S., every threat to send missiles toward the U.S. 
territories' people is designed to corrode faith in the U.S.-
ROK alliance. In short, North Korea's nuclear program is far 
more offensive in nature than it is defensive.
    While President Trump is correct to respond positively to 
the invitation to meet Kim Jong-un, he should be guided by the 
need to avoid making any concessions that would suggest a 
weakening of the U.S. alliance commitment to South Korea such 
as withdrawal of U.S. conventional troops or a reduction in the 
pace and schedule of annual military exercises. The North 
Koreans always ask for such a reduction of exercises and we 
have always refused and we should continue to do so.
    Quite to the contrary, President Trump should reaffirm our 
commitment to our allies, work closely with China and others in 
the region, especially our other brave ally Japan, so that 
North Korea does not miscalculate our resolve and so that other 
allies in the region and around the world are reaffirmed in 
their confidence in the U.S. The stronger sanctions that the 
Trump administration has succeeded in having adopted in the 
U.N. Security Council have been made possible by precisely the 
willingness to negotiate that the President has professed on 
several occasions.
    So as we go forward there are a number of things we need to 
keep in mind. First of all, work with those allies and have 
those allies work with each other. This is not always easy. 
Secondly, we need to work with China. The idea that we are 
going to solve this and then look back and see that China was 
somehow against us throughout this, I don't think so. I think 
we are going to have to figure out a common language with 
China, especially, and this is a third point, to keep those 
U.N. sanctions strong and robust and even stronger in the 
future. We need to continue to look for ways to slow up their 
program whether interdicting international supply chains or 
whatever it takes, but we need to look for ways to deal with 
that.
    And, finally, we need to keep the door open to diplomacy. 
This is the way we reach and cooperate with our allies and this 
is the way that we need to stay engaged until we achieve the 
ultimate end which must be nothing less than the 
denuclearization of North Korea. Thank you.
    [The prepared statement of Ambassador Hill follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. I thank you for that and look forward to going 
into the questions.
    And, Dr. Lee, you looked at this from an academic side, 
studying it and writing about this. Dr. Cha and Ambassador 
Hill, you both have been at the Six-Party Talks and you got, 
you know, right involved in that. And if we look back at the 
chronological timeline that I have talked about in the very 
beginning, and we saw the escalation of either ICBMs or nuclear 
weapons going on for the last 25 years and we have been through 
three attempts at having a resolution to this and we have been 
through three administrations and we are where we are at today 
having these talks today. So we know what doesn't work.
    And what we have seen is North Korea has become more 
advanced in their weaponry, their ICBMs along with the nuclear 
weapons with the last one looking like it was a hydrogen bomb, 
and they have become more emboldened. And so as I said earlier, 
we are where we are at today. And then keep in mind, people 
say, well, as you brought up, Kim Jong-un is out like, well, 
okay, now we are going to play nice. You know, people say he is 
really a good guy. He is joking around and all that.
    But we need to keep in mind who he is. He is the guy that 
has killed over 140 people that were close to him including his 
uncle with anti-tank guns, his half-brother with chemical 
weapons. So this is who we are dealing with. And then we see 
the condition of the people in North Korea and then we have 
heard that there are no-go zones for the government in the 
rural areas because they know they are not safe out there.
    And I think the best thing to do is that as you brought up, 
Dr. Lee, is the only way they are going to denuclearize is if 
there is a regime change. And of course going into nuclear 
talks on the continent it is historic, but if Kim Jong-un knows 
that that is the only way this is going to happen or we know 
that, I don't want to impede that. There has got to be a good 
solution, a win-win situation.
    And I know one of the things that comes up is the 
unification of the Korean Peninsula. And I told the South 
Koreans that our goal is to facilitate that situation and of 
course we are going to talk more about that after these talks 
start and we have those talks and this is so timely because the 
talks with Moon Jae-in will be this month and hopefully with 
President Trump next month.
    But if unification comes up is that possible on the Korean 
Peninsula, Dr. Lee?
    Mr. Lee. Under the current circumstances unification on an 
equitable merger type of harmonious unification is impossible. 
You just cannot have two states, one which is 50 times richer 
than the other, agree to a joint venture of one body, one 
government. It is implausible. What is different today is that 
Kim Jong-un of course North Korea stands on the verge of 
complete nuclear breakout. Its capabilities are far stronger 
than at any time in history in terms of his growing lethality, 
his credible, constant credible nuclear threat to the U.S. 
mainland. Furthermore, North Korea now has for the first time a 
softer, kinder, feminine face to the very unattractive state 
that North Korea is. The royal sister, were she to make a 
trans-Pacific visit to the United States as a special envoy, 
for example, she is reported to be pregnant, were she to make 
that long arduous journey looking visibly pregnant, well-
wishers the world over will say----
    Mr. Yoho. Right.
    Mr. Lee [continuing]. The hardworking, self-sacrificing, 
peace-seeking young lady is doing so much, the administration 
has to yield and give some concessions. What is also different 
today is it is unlikely that the United States despite North 
Korea's unconventional campaign of fundraising through 
provocations will give North Korea the kind of generous aid as 
in the past.
    Congressman Rohrabacher, may I respectfully point out the 
United States gave North Korea about $500 million more than the 
sum that you cited, an excess of $650 million in fuel aid and 
about the same in food aid, in excess of $1.3 billion between 
1995 and 2008.
    Mr. Yoho. I am going to cut you off there because I will 
let you talk to him about that. I want to get your ideas 
because you guys were there when the sanctions or when they 
were de-listed as a state sponsor of terrorism. We worked hard 
to get them back on that list and this is something that North 
Korea needs to understand that I see no relinquishing of any of 
the sanctions. That we worked hard to get those sanctions 
working with China and putting pressure through our Treasury 
Department out of this committee to do those things, and our 
goal is to make sure that the sanctions aren't backed off, they 
are not de-listed as a state sponsor of terrorism.
    And what are your thoughts on that? Just stay strong, do 
not relinquish until they bring something to the table that 
says this is a good faith gesture? Ambassador Hill, do you want 
to take that? And then what I will do is we are going to go to 
the ranking member.
    Ambassador Hill. I think the reality of the situation is 
that in laying out a suite of sanctions there needs to be some 
corresponding actions that the North Koreans would take and we 
can look at what each action can be and what it is worth in 
terms of sanctions relinquishment. I must say with respect to 
U.N. sanctions, if you talk about the difficulty of putting 
sanctions on there, it is great difficulty in getting anything 
through the U.N. Security Council especially when you have 
members such as China and Russia who have a very different 
view. I would be very reluctant to relax any of those U.N. 
sanctions because of the great difficulty of putting them back 
on.
    With respect to bilateral sanctions, I think it is quite 
another picture. I think with respect to issues such as state 
sponsor of terrorism that was a sanction that was taken off but 
it could have been put on a lot earlier and, frankly speaking, 
I was surprised that it took so long. North Korea had long 
since withdrawn its signature, in effect, from the six-party 
agreement back in 2005. They did that in 2009 and I think we 
should have slapped those sanctions on immediately and we could 
have.
    Mr. Yoho. I agree with you. And we asked Secretary 
Tillerson right in the beginning of his tenure to put those 
back on and they said they were studying it. So the goal is to 
keep them on until we get, you know, accurate information that 
they are really wanting to change.
    Next, we will go to the ranking member, Mr. Sherman.
    Mr. Sherman. Ambassador Hill, you point out that summits 
may be a good thing, but I will point out you wage war and 
peace with the President you have, not the President you wish 
you had, and how these turn out so we will have to see.
    I agree with you that we cannot allow the Security Council 
to pass a resolution withdrawing sanctions. We could, however, 
agree to a 6-month suspension of those sanctions that would 
automatically go back into force unless there is another 
resolution. We could always veto a resolution. If we sanction 
North Korea without negotiating they are going to keep making 
fissile material and missiles. And if we negotiate without 
sanctioning them then we get to have talks with them, but they 
are going to keep making fissile material and missiles.
    I have a couple questions for the record I would like all 
three witnesses to respond to. The first is, assuming we are 
not successful in rolling back very, very significantly the 
North Korean program in the next year, how likely is it that 
Japan will develop its own nuclear weapons and how important is 
it to China that Japan not develop its own nuclear weapons?
    The second question for the record is what could be done--
the U.N. sanctions seem pretty strong--and not what do you do 
to convince others to agree to strengthen them, but if you were 
the Security Council what would you do to strengthen them other 
than shorten the phase-in periods and add financial sanctions? 
Now, Dr. Lee, you correctly point out I think that the North 
Korean Government doesn't want to give up its nuclear program 
unless they face regime-threatening sanctions and it is pretty 
difficult to put those in place and of course that China 
doesn't want the regime threatened.
    So my question is--and there is another reason for that in 
as Gaddafi gave up his nuclear program, Saddam gave up his 
nuclear program--they are both dead. So I will agree with you 
it is going to be very hard to get them to give up their 
nuclear weapons. The question is what level of pressure is 
necessary to get them to agree to limit those weapons in 
number, agree to a strict monitoring of those weapons, and 
freeze their missile program? If we were aiming for that level 
of control would we have to have the regime teetering on 
destruction or would they give us that even if they were in 
less dire straits?
    Mr. Lee. Some may take the view that the reason Kim Jong-un 
changed his behavior as of New Year's Day is due to growing 
fear from tough sanctions enforcement by the United States. And 
credit is due where it is due, President Trump is the first 
U.S. leader to, in a meaningful way, enforce sanctions against 
North Korea. At the same time, I don't think Kim Jong-un is so 
fearful of an imminent coup that he has changed his tune from 
molto agitato to placido.
    When President Trump spoke all fire and fury in early 
August, for example, Kim Jong-un was quiet for about 25 days 
and many people opined maybe he is fearful. But then on August 
29th he fired a missile over Japan and that day is known in 
Korea, both in North and South, as National Humiliation Day for 
it was on that date in 1910 that Korea was colonized by Japan 
and just 5 days later North Korea conducted its first nuclear 
test. And when President Trump on September 19th at the U.N. 
General Assembly spoke of Rocketman and total destruction, 
undeterred Kim Jong-un fired off that devastating ICBM in late 
November.
    Mr. Sherman. Dr. Lee, I am going to have to interrupt 
because I have a question for Dr. Cha.
    You have spoken, obviously we need tougher banking 
sanctions. We need to prevent North Korea from being able to 
borrow money and undertake large transactions. You spoke of 
sanctioning individual Chinese banks, but it occurs to me that 
if you are the 100th largest Chinese bank and you happen to be 
based in northern China you might very well decide, well, I 
don't want to do business with the United States. After all, 
there are 99 bigger institutions that will be signed on an 
American bank. I just do business with North Korea instead.
    So the question is can we achieve what we are trying to 
achieve by sanctioning individual entities in China or do we 
have to sanction all of the Chinese economy until Beijing 
knocks on the door of some bank that doesn't want to do 
business in the United States and says you are a Chinese bank, 
you can't do business with North Korea? Do we need entity 
sanctions or country sanctions?
    Mr. Cha. It is a great question. I think a decision to 
sanction the entire Chinese banking system would entail 
equities that go far beyond North Korea and it would be hard, 
as someone who----
    Mr. Sherman. I am suggesting threatening it rather than 
actually doing it, but go ahead.
    Mr. Cha. From what I have seen in terms of what this 
administration has done so far although they haven't spoken 
about it publicly a lot, as you know well the secondary 
sanctioning of China is well underway. I mean they have 
sanctioned scores of entities and individuals. Now you are 
absolutely right that most----
    Mr. Sherman. Little ones that don't do business with the 
U.S. anyway.
    Mr. Cha. Right, right. And that is why they are not a 
problem in U.S.-China relations. That is why the Chinese 
Government doesn't care. Sanctioning the entire Chinese banking 
system would, I don't know if we would even necessarily solve 
our North Korea problem because they are not transacting 
through the Bank of China or other places, they are transacting 
through these smaller ones that you talked about.
    Mr. Sherman. Does Beijing lack the capacity to control what 
goes on by banks on its own territory? Is this some sort of 
failed state?
    Mr. Cha. I would say that they probably have less control 
than we think they do over all of these----
    Mr. Sherman. Well, we are able to tell small banks in 
Nebraska not to do business with terrorists. I assume that 
Beijing has at least as much control over there. IC, 
Independent Community Bankers association, we do, and I yield 
back.
    Mr. Yoho. Thank you. Next, we will go to Mr. Rohrabacher 
from California.
    Mr. Rohrabacher. Yes, thank you, Mr. Chairman. So we know 
now that Kim Jong-un killed his uncle, murdered his uncle and 
also murdered his half-brother among other things that he has 
done. And were these killings an indication that he was a 
hardcore Communist who basically felt that those people were 
undermining his efforts, or was it an indication that they were 
hardcore Communists and he wanted to take things in another 
direction that they would oppose? Which one of those and maybe 
just right down the line, what you think.
    Mr. Ambassador, start with you.
    Ambassador Hill. I think the murder of his uncle, Jang 
Song-thaek, who was in a Communist Party meeting and was 
essentially perp-walked out of the meeting and then killed the 
next day, I think the Chinese took that as an attack on the 
China relationship. And I think Kim Jong-un was kind of making 
an important statement there because he was essentially saying 
the Chinese thwarted my father in realizing his goal of being 
nuclear, I am not going to let that happen. So it was the kind 
of statement that he is kind of keeping the Chinese at bay. The 
Chinese took it as an insult to them and that is one of the 
reasons that he was never invited to China until just a few 
weeks ago.
    Mr. Rohrabacher. Thanks for that analysis.
    Would you agree with that?
    Mr. Cha. Yes, I would agree with that. I mean I don't think 
it was about ideology. I think it was all about power.
    Mr. Rohrabacher. Right.
    Mr. Cha. And whether it was power that the uncle was having 
in terms of----
    Mr. Rohrabacher. Well, it wasn't a power about, it wasn't a 
conflict over whether we should have a reform type movement, 
but it was all just maybe what gang we are going to associate 
with, China or Russia or whatever. Do you agree with that Dr. 
Lee?
    Mr. Lee. Jang Song-thaek was the de facto number two man. 
He was recognized as such for over a decade. And usually in a 
totalitarian system the life of the number two man is short and 
precarious. It was almost preordained. With respect to the 
half-brother he was a marked man the day he gave a live TV 
interview to a major Japanese broadcaster coming out against a 
third father-to-son hereditary succession.
    North Korea operates like a giant criminal syndicate. It as 
a matter of state policy produces and sells drugs, fake 
pharmaceuticals, fake famous brand U.S. cigarettes, 
counterfeits U.S. currency, and it is business not personal in 
that kind of system.
    Mr. Rohrabacher. I understand. But we go into details about 
the cars that they import or the amount of whiskey they import, 
but yes, like a criminal enterprise. What should we seek, 
Ambassador Hill, what would be the minimum that we should seek 
to get out of the meeting between our President and the Korean 
leader?
    Ambassador Hill. Well, I would agree with what Dr. Cha said 
which is the absolute minimum needs to be a reaffirmation of 
their commitment to the goal of denuclearization which was to 
bring them back into compliance with the international treaty, 
the Non-proliferation Treaty.
    Mr. Rohrabacher. And they have already made some statements 
yesterday, I believe, was that indicated that they might go in 
that direction; is that correct?
    Ambassador Hill. Yes. But I think that has to be 
memorialized in writing and I think it needs to be very clear. 
What I would like to see, actually, is the way summits are 
usually done, which is you take the national security advisor 
and put that person on a plane and that person should be 
talking to his counterpart and they should have an agreed joint 
statement on what the two leaders are going to come out with. 
So I think the national security advisor should be on a plane 
by now rather than being in the White House and he should be 
trying to make sure this is a success. And I would judge the 
minimum success would be a North Korean commitment to their 
early denuclearization and rejoining the Non-proliferation 
Treaty as a nonnuclear state.
    Mr. Rohrabacher. Well, I think that is great advice for our 
President and I know that John Bolton would love to do that for 
his new boss. And we wish John Bolton the success in what he is 
doing and I hope he gets the opportunity to do the kind of 
things you just outlined.
    Ambassador Hill. I wish I could give him a restaurant 
suggestion in North Korea, but I couldn't think of any.
    Mr. Yoho. Thank you.
    Next, we will go to Mr. Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. I just got that 
image of John Bolton dining in Pyongyang. I can't get that out 
of my head. I just want to thank you, Mr. Chairman, for this 
panel, a wonderful panel, really a very thoughtful discussion.
    Ambassador Hill, we met in Korea and Japan and I read your 
book. You gave us a copy of your book, thank you, and Dr. Cha 
and Dr. Lee, really wonderful comments. Dr. Lee, you talked 
about Humiliation Day back in 1910. Were you saying that Kim 
Jong-un deliberately picked that day to make a message to the 
Korean people about his missile development program?
    Mr. Lee. To stick it to Japan. He said so afterwards this 
was a message for Japan.
    Mr. Connolly. Yes. It wasn't an accidental date.
    Mr. Lee. No. And as he said in the wake of his first ICBM 
test ever on American Independence Day last year, this is my 
gift package to the American imperialists and there will be 
more packages coming your way.
    Mr. Connolly. Dr. Cha said the danger of a failed summit is 
that it brings us closer to war. No diplomacy after a summit 
and a summit without adequate preparation has a greater chance 
of failure, your comment on that?
    Mr. Lee. I completely agree with that assessment. Even a 
summit meeting between among allies, months at least weeks of 
preparation go into it, all the wrinkles need to be ironed out. 
Unlike a blind date, there needs to be no spontaneity, no 
surprises. So I think impulsively to accept Kim Jong-un's 
proposition was probably a mistake, but the U.S. surely can 
recover from that mistake.
    If President Trump is able to look at Kim Jong-un straight 
in the eye and tells him in public, Mr. Kim, tear down the 
walls of your horrific gulags that may mark at least a powerful 
symbolic moment in U.S.-North Korea relations even if 
denuclearization in the short term is not possible.
    Mr. Connolly. So this is, you know, first time an American 
President has met with the leader of North Korea. Don't we need 
to be careful about setting expectations? I mean tearing down 
all your gulags, denuclearizing, meaning you roll it back and 
set it in some closet somewhere else, can you promise you will 
join the Nuclear Non-proliferation Treaty and you will never 
use nuclear weapons ever again, and by the way while you are at 
it you are going to respect human rights and go to church on 
Sunday or Temple, I mean are those realistic expectations for 
the first summit between the President of the United States and 
the head of the North Korean regime?
    Mr. Lee. I fear many people are still caught up in the 
drama of the day when President Nixon visited China in February 
1972, but that summit was preceded by Henry Kissinger's visit 
in July the previous year which, in turn, was preceded by some 
18 months of secret negotiations. And the agenda was of course 
the common threat, perceived threat of the Soviet Union, and 
for the United States creating the excitement of winning China 
back as the U.S. was losing Indochina, and for Mao and Zhou 
they had their own agenda too to win Taiwan's seat in the U.N. 
Security Council. We don't see that kind of convergence of 
interests.
    Mr. Connolly. Here, that is right.
    Dr. Cha, I quoted your testimony. Help us understand, you 
know, the upside we can all speculate about on a summit. What 
is the downside? Because I look at it and think, gee, this is 
awfully risky from a diplomatic point of view. The stature of 
the United States presidency which is something that Kim Jong-
un would more than welcome and if Kim Jong-un spurns President 
Trump at that summit he gets everything we get nothing. We are 
humiliated. We lose face. Our diplomacy is set back and Kim 
Jong-un laughs all the way to the nuclear repository. I am 
simplifying it, but I really think those are kind of the risks 
and stakes.
    But I would like to hear you enumerate what could go wrong 
with a summit. You obviously had something in mind when you 
made that statement.
    Mr. Cha. Right. So I mean, I think there are a couple of 
things. The first is as you described, Kim may just want the 
meeting in and of itself as a nuclear weapons state, the 
handshake, the picture, and that is all he wants. I mean the 
other is, and I think Chairman Yoho raised this early, the 
heightened expectations on our side that we expect a lot more 
to come out of this meeting than the President and the 
President will be quite disappointed by that.
    The other thing as I mentioned in the testimony is our 
allies. I mean there are things that for example one thing that 
is different from the time that we were involved in 
negotiations is the long-range ballistic missile threat and I 
think there would be focus on that by any negotiating team. But 
there are other alliance equities that are involved when we 
talk about things lower than the long-range missile.
    Mr. Connolly. Right.
    Mr. Cha. The medium-range threat, the short-range ballistic 
missile threat, so like I said we always want our policy going 
into these negotiations to be something that is benefiting all 
of us in the region, the allies, and not something that we do 
with North Korea that separates us from our allies.
    Mr. Connolly. Mr. Chairman, would you allow Ambassador Hill 
to answer the same question, and then I am done.
    Mr. Yoho. Yes, sir. Go ahead.
    Mr. Connolly. I thank the chair.
    Ambassador Hill. I think the worst outcome would be the 
situation where the President somehow walks out and it is seen 
as a failure. I think the concern of course is when you start 
with heads of state rather than assistant secretaries there is 
kind of nowhere to go and so there is a sense that if it is 
unsuccessful the diplomatic track has kind of reached the end 
and I think that would bring back in great strength the idea 
that you might have to look more carefully at military 
solutions.
    I would like to emphasize, you know, I approached the whole 
issue having been Ambassador in South Korea and seeing the 
terrible damage that was being done to our relationship with 
South Korea back in 2003, 2004 when there was no sense of any 
negotiation going on and the sense among the Korean people 
saying it is easy for you living in Washington not to worry 
about negotiation but we are right here, and so I think it is 
very important that any U.S. negotiator whether it is a 
President or a lowly assistant secretary needs to understand 
that the South Korean people are why we are there. They are the 
ally.
    And if we create a circumstance where we have set the thing 
up for failure or otherwise had no progress made where the 
track will inevitably shift over back to the military, I think 
we will have created problems in an alliance that we really 
need to be very close and strong.
    Mr. Yoho. Thank you for that.
    Next, we will go to Mr. Perry from Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman. Thanks, gentlemen, for 
your attendance. And I have been listening pretty carefully to 
the conversation and I just need to, I feel like I need to 
offer an alternative view.
    While I respect your opinions and you are certainly, I 
think, much more learned than I am and let me just say that up 
front, but let me also say that it seems to me that all these 
notions of it has got to go through this step and this person 
and this amount of time and these protocols--and I get that the 
South Korean people are wonderful. I have been there and they 
are just wonderful folks and I understand that they have much 
more at stake than we do and when you say, Ambassador, that we 
are there for them, but we are not only there for them. And 
with all due respect, all these other protocols that have been 
discussed, where have they gotten us?
    So I would suggest to you that we are where we are because 
we are in the precipice of a dramatic shift in the calculus 
where this nation under this ruler has the ability to deliver 
nuclear weapons anywhere in the world and I think that changes 
the calculation exponentially. And I would also remind 
everybody that while the protocols were different under Nixon 
and Kissinger and China, look at where we are now with China. I 
mean yes, we talk and we, you know, 25 percent of their market 
is the United States and so on and so forth, but for the bulk 
of my lifetime economically they have been increasing in their 
aggressive and in their capabilities vis-a-vis us.
    So I just think that there is another paradigm and quite 
honestly I think it is refreshing and I think the stakes are 
high, but I would just say that it seems to me that doing 
everything that we have been used to doing has gotten us to 
this point without any success whatsoever. So let me ask you 
this. The relationship, and I understand that the Koreans see 
this very differently than the United States does, that 
reunification is something that they long for, there is family 
connections, there are nationality connections and pride and so 
on and so forth, but does the relationship between President 
Moon and Kim Jong-un, does that and has that recent rekindling 
of that relationship, has that enfeebled the United States' 
position?
    Anybody?
    Ambassador Hill. I think it reflects some of the complex 
decision making that President Moon Jae-in has within his own 
political party among his people and managing the relationship 
with the United States. I don't think there are too many 
Koreans who would say that the relationship with the United 
States is not of central importance to them, and I think they 
have done much to keep this alliance strong including fielding 
one of the best militaries in the world. I think that you 
compare the South Korean military to any military in NATO, it 
is very strong.
    There is a terrible problem with North Korea but it is a 
problem that South Koreans have to deal with, grapple with 
every day. And by no means am I suggesting that we are informed 
entirely by their issues because with these intercontinental 
ballistic missiles this comes right to our equities as well, 
but if we wanted to ignore that and somehow allow North Korea--
I said earlier in my testimony that I think what North Korea's 
goal here is not so-called regime survival, their goal here is 
to decouple us from the Korean Peninsula.
    Mr. Perry. And I agree with you about that for sure.
    Ambassador Hill. That is brutal stuff. And if we give in to 
that we have a problem with alliances all over the world. We 
are, if you will, a sort of island power that needs those 
overseas alliances. We need to have these important allies out 
there and I think what goes on in Korea can inform what can go 
on in other parts of the world.
    So we have to handle it----
    Mr. Perry. But in a broader sense, Moon's kind of 
relationship so to speak recently, is it more of a political 
calculation for his own purposes as the leader of Korea and 
becoming, and aspiring to be the leader of South Korea, or is 
it strategic and does it, is it a force multiplier for us, 
because I don't necessarily see it as assisting in our efforts 
to denuclearize them while North Korea is specifically working 
to decouple the relationship with the United States.
    Ambassador Hill. I will defer to the opinions of others, 
but my opinion is that Moon understands the North Korean threat 
as well as every other Korean leader has and understands the 
importance of the U.S. relationship, but he believes that they 
will have more room to maneuver if there is dialogue with the 
North Koreans. And I think this started as an effort to create 
a safer environment for the Olympics but it has gone beyond 
that and I think it is in our interest to stay very close to 
Mr. Moon. And I might add that President Moon has the 
reputation for saying the same thing to different people which 
is quite refreshing.
    Mr. Cha. The only thing I will add is that I think that a 
lot of the diplomacy that we are seeing now was generated by 
the South Koreans, you know, again using the Olympics 
initially. And I mean that is a good thing in the sense that in 
December of last year we all thought we would be, you know, 
possibly, certainly in a crisis, but possibly close to armed 
conflict by April. So in that sense it is a good thing. 
However, at the same time there is the danger of raising 
expectations and overselling what the North Koreans may be 
interested in. And I worry about that quite a bit because the 
last thing we want is for the President to walk into this 
meeting and say this is not what I expected.
    Mr. Perry. Well, I don't know who is raising expectations. 
From my standpoint, anybody that has watched North Korea over 
the course of their lifetime knows that they are very, they are 
completely duplicitous so they are not to be trusted 
whatsoever. I have almost zero expectations. I am glad for the 
diplomacy. I much prefer it to anything else that as far as the 
options that are before us, but I have very low expectations.
    But once again I don't think it takes us any less further 
than we are at the present time or where we were--look, it is 
great that whether the Olympics were just the opening, the 
entree, and then great things happen from there and we can 
continue or whether it is just another ruse by the North 
Koreans, I think we have to take the shot. So I am all for 
that.
    Let me just ask you one last question with the chairman's 
indulgence. What are the tangible indications of 
denuclearization? Let's just say, let's not raise any 
expectations, right, let's not. But if it were to happen, other 
than, Ambassador Hill, I think you said commit in writing, with 
all due respect I think they would crumple the paper up that 
that is written on as soon as they walk away from writing it if 
that is what they so desire and they don't care about it.
    But what are the tangible indications of denuclearization 
and what is the time frame that America should look for if 
North Korea is indeed sincere?
    Ambassador Hill. I will just say that the purpose of 
committing in writing is not necessarily to have 
denuclearization. It is to say to the other countries involved 
in the Security Council process that the U.S. has gone further 
than, has tried as hard as it could and the North Koreans have, 
if they crumple up this piece of paper, prevaricated once again 
and that we need to move further on sanctions.
    So I consider getting them on the record a key factor in 
getting even stronger sanctions which it may require. After 
all, this is a country that can produce nuclear weapons but 
cannot produce gasoline. And so the capacity to sanction 
gasoline, the capacity to make sure sanctions are fully 
enforced even in the ship-to-ship efforts that we have seen 
lately, if we can do that I think North Korea will be more in a 
mindset to consider their future and the fact that their future 
may be better without nuclear weapons.
    But in answer to your question, I do not see a tangible 
indication from the North Koreans that they are prepared to 
denuclearize. I haven't seen that for several years.
    Mr. Cha. Also your question was what would we want to see 
in terms of tangible, so I would point to three things very 
broadly. The first is movement in terms of things beyond the 
plutonium program because in the past they have sold the 
plutonium program to us and when the real concern was this 
newer, more modern program.
    The second thing is ICBMs. That is the thing that is 
different today from the last three times we did this 
negotiation, this ability to reach out and touch the United 
States with something they did not have before. So those would 
be two of the priorities, I think.
    Mr. Perry. Mr. Chairman, thank you.
    Mr. Yoho. No, I appreciate your question and I appreciate 
you all hanging in there. And I think this is an important 
thing and the expectation level yet would be great to be very 
optimistic about that we would love to get, you know, something 
not just in writing. I think writing is worthless. It is the 
actions that go with that.
    And this again the Foreign Affairs Committee has been so 
good at the different bills and letters we have written out. 
H.R. 1771 was the sanctions act, H.R. 757 North Korea Sanctions 
and Policy Enhancement Act, thank you there, H.R. 3364, 
Countering America's Adversaries Through Sanctions Act, letters 
to the administration on secondary sanctions, we also sent them 
to the Treasury Department asking why haven't these secondary 
entities in China been sanctioned and we were happy to see 
those things did follow through. And then H.R. 3898, the Otto 
Warmbier North Korea Nuclear Sanctions Act which passed the 
House, I think it was 415 to 2 and it is waiting for work in 
the Senate which is probably one of the strongest sanctions 
against North Korea.
    But here we are and we look at an isolated state, North 
Korea, when the rest of the world is progressing and we have 
China that has the biggest hand as far as trade with North 
Korea knowing they do 90 percent of the trade with them, China, 
I would think, would want a resolution to this as much if not 
more than South Korea. South Korea is right there, they are 
very vested. We are very vested. We have roughly 48,000 
military people, 200,000 support people with them and families 
so it is very serious for us too. But if you look at the trade 
difference between South Korea and China and North Korea and 
China, the trade between South Korea and China is multiple 
folds of what it is to North Korea.
    And eventually after all wars it seems we focus on trade, 
so I would think China would come to the table to put the 
pressure more so on North Korea to be sincere about really 
getting rid of the nuclear weapons. The nuclear weapons is 
going to box Kim Jong-un into a further corner of isolation and 
then what you have is the threat of Japan maybe developing 
nuclear weapons which China won't like, and it just, it starts 
a cascade, a catch-22 situation where we don't become safer in 
the world, we become less safe. And so this is something let's 
hope these talks go well.
    And as far as unification, I was over there talking to the 
people of South Korea, I said can you explain to me how that 
would work? Does that mean North Korea would become more like 
South Korea? And they said no, and I said well, does that mean 
South Korea has to become more like North Korea? And it was 
kind of quiet in the room.
    And it is just a tough situation and let's just hope 
through the diplomacy, through the continued sanctions that we 
have going on that I, for one, will recommend these will not be 
backed off and if anything else they will be tightened up 
until, you know, you are earnest in what you are saying you are 
going to do and then we have the verification of that and then 
welcome North Korea into the 21st century. I don't think 
anybody is trying to invade North Korea. I think that is pretty 
well established. And let them know that, you know, we welcome 
you into the world with the rest of us on an even playing 
field.
    So with that I thank you for your time. A lot of good 
recommendations came out of here. We look forward to passing 
those on to the administration and I just thank you for your 
expertise and your time being here. The meeting is adjourned, 
thank you.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
                   
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[Note: No additional responses to the previous questions were received 
prior to printing.]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
[Note: No additional responses to the previous questions were received 
prior to printing.]

                                 [all]
</pre></body></html>
